         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                         Catalyst for Improving the Environment


Evaluation Report



       EPA Needs to Improve
       Internal Controls to Increase
       Cost Recovery
       Report No. 09-P-0144

       April 27, 2009
Report Contributors:               Carolyn Copper
                                   Steve Hanna
                                   Chad Kincheloe
                                   Anne Emory
                                   Tapati Bhattacharyya




Abbreviations

CERCLA        Comprehensive Environmental Response, Compensation, and Liability Act
CERCLIS       Comprehensive Environmental Response, Compensation, and Liability
              Information System
EPA           U.S. Environmental Protection Agency
FY            Fiscal Year
GPRA          Government Performance and Results Act
IFMS          Integrated Financial Management System
NPL           National Priority List
OCFO          Office of the Chief Financial Officer
OECA          Office of Enforcement and Compliance Assurance
OIG           Office of Inspector General
OSWER         Office of Solid Waste and Emergency Response
PRP           Potentially Responsible Party
SCORPIOS      Superfund Cost Recovery Package Imaging and On-Line System
SIS           Superfund Information System
SOL           Statute of Limitations
SPIM          Superfund Program Implementation Manual
SSID          Site Spill Identification Number
ZZ            Non-site-specific Identifier Code




Cover photo: Hazardous containers at National Lacquer and Paint Company in Illinois.
             (Source: EPA photo)
                       U.S. Environmental Protection Agency                                              09-P-0144
                                                                                                      April 27, 2009
                       Office of Inspector General


                       At a Glance
                                                                         Catalyst for Improving the Environment


Why We Did This Review              EPA Needs to Improve Internal Controls to
We evaluated the U.S.
                                    Increase Cost Recovery
Environmental Protection
Agency’s (EPA’s) Superfund cost      What We Found
recovery at a sample of non-
National Priority List (NPL)        Within a sample of removal actions we reviewed, EPA collected from
removal sites. The objectives       responsible parties approximately 11 percent ($31.4 of $294.5 million) of the
were to determine what internal     Federal Government’s costs for conducting the removal actions. According to
controls EPA uses to (1) monitor    EPA, about another 30 percent ($86 million) of the costs are pending further
cost recovery, (2) ensure           government action. EPA attributed most of the remaining $177.1 million of
potentially responsible party       unrecovered costs to a lack of viable potentially responsible parties (PRPs).
searches are completed and
documented, (3) monitor costs       EPA has a control for monitoring the statute of limitations (SOL) on cost
attributed to generic site codes,   recovery. EPA reports show that the Agency has a high rate of success in
(4) ensure removal milestones are   addressing cost recovery requirements prior to the expiration of the SOL.
documented in the Superfund         However, EPA has limited controls in other key areas that affect its ability to
database, and (5) ensure accurate
                                    recover the government’s costs from responsible parties. These include limited
cost recovery data.
                                    oversight of PRP searches, inconsistent documentation of PRP searches, and
                                    data quality problems in EPA databases that track Superfund cleanup status and
Background
                                    cost recovery. EPA also does not review and monitor charges made to all
                                    Superfund accounts so all appropriate site costs can be recovered. A sample of
The Comprehensive
Environmental Response,             Superfund accounts used to capture removal costs shows as much as
Compensation, and Liability Act     $25 million that EPA could potentially pursue for cost recovery, but has not.
(CERCLA, also known as
Superfund) authorizes EPA to         What We Recommend
address releases of hazardous
substances that require a rapid     We recommend that EPA implement improved controls to (1) monitor PRP
response. These actions (called     search completions, (2) document PRP searches consistently, (3) ensure data
removal actions) often require
                                    quality in EPA databases, and (4) review all appropriate Superfund accounts to
EPA to pay for cleanup costs
                                    ensure the government’s costs are identified for possible recovery. EPA
before identifying a responsible
party. CERCLA authorizes EPA        concurred with our recommendations with minor qualifications, and has
to recover these costs.             proposed actions to address them. All recommendations are open with
                                    agreed-to actions pending. In its final response to this report, EPA should
For further information, contact    provide estimated or actual completion dates for recommendations 2-1 through
our Office of Congressional,        2-4; 3-1 and 3-2; and 4-1 through 4-3.
Public Affairs and Management
at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2009/
20090427-09-P-0144.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                          April 27, 2009

MEMORANDUM

SUBJECT:               EPA Needs to Improve Internal Controls to Increase Cost Recovery
                       Report No. 09-P-0144


FROM:                  Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

TO:                    Catherine McCabe
                       Acting Assistant Administrator
                       Office of Enforcement and Compliance Assurance

                       Maryann Froehlich
                       Acting Chief Financial Officer
                       Office of the Chief Financial Officer

                       Barry Breen
                       Acting Assistant Administrator
                       Office of Solid Waste and Emergency Response


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. The OIG
responded to the Agency’s draft report comments by making changes to the report and providing
responses to EPA, as appropriate. This report represents the opinion of the OIG and does not
necessarily represent the final EPA position. Final determinations on matters in this report will
be made by EPA managers in accordance with established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $621,682.
Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response should include a corrective action plan for agreed
upon actions, including actual or estimated milestone completion dates. We have no objections
to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions, please contact Carolyn Copper, Director for Program
Evaluation, Hazardous Waste Issues, at 202-566-0829 or copper.carolyn@epa.gov; or Steve
Hanna, Project Manager, at 415-947-4527 or hanna.steve@epa.gov.
EPA Needs to Improve Internal Controls                                                                                       09-P-0144
to Increase Cost Recovery


                                   Table of Contents

Chapters
   1    Introduction ...........................................................................................................       1

                 Purpose ..........................................................................................................    1
                 Background ....................................................................................................       1
                 Noteworthy Achievements..............................................................................                 2
                 Scope and Methodology.................................................................................                2
                 Prior Evaluation Coverage .............................................................................               4

   2    EPA Has Internal Controls to Recover Superfund Removal Costs,
        But Key Controls Need Improvement..................................................................                            5

                 Not All Costs Recovered at Non-NPL Removal Sites ....................................                                5
                 EPA Monitors the Statute of Limitations on Cost Recovery ...........................                                 5
                 EPA Oversight Needs to Include Routine Reviews of PRP Search Status ....                                             6
                 PRP Search Results Are Not Consistently Documented................................                                   6
                 Conclusions....................................................................................................      8
                 Recommendations .........................................................................................            8
                 Agency Comments and OIG Evaluation.........................................................                          8

   3    EPA Does Not Routinely Review Some Superfund Accounts
        That Can Contain Recoverable Government Costs ...........................................                                     10

                 EPA Does Not Review Non-Site-Specific Accounts .....................................                                 10
                 Recommendations .........................................................................................            11
                 Agency Comments and OIG Evaluation.........................................................                          11

   4    EPA Information Systems Necessary for Cost Recovery
        Have Data Integrity Problems .............................................................................                    13

                 CERCLIS Sites Are Not Always Identified in SCORPIOS ..............................                                   13
                 SSIDs and Names in SCORPIOS Have Some Data Quality Problems ........                                                 14
                 EPA Public Information Systems Yield Different Results ...............................                               14
                 Conclusions....................................................................................................      15
                 Recommendations .........................................................................................            15
                 Agency Comments and OIG Evaluation.........................................................                          16

   Status of Recommendations and Potential Monetary Benefits.................................                                         17


Appendices
   A     Agency Response to Draft Report and OIG Evaluation.....................................                                      18

   B     Distribution ............................................................................................................    28
                                                                                  09-P-0144




                                Chapter 1
                                Introduction

Purpose
          The purpose of this evaluation was to assess the U.S. Environmental Protection
          Agency’s (EPA’s) internal controls to ensure it is recovering Superfund removal
          costs from sites not on the National Priority List (NPL).

          We addressed the following questions:

          1. What internal controls does EPA use to monitor expenditures and cost
             recovery at non-NPL removal sites?
          2.
             How does EPA ensure that potentially responsible party (PRP) searches are
             completed and documented for non-NPL removal sites?
          3. What processes and controls does EPA (regions and Headquarters) use to
             monitor costs attributed to generic site spill identification number (SSID)
             codes?
          4. What processes and controls does EPA (regions and Headquarters) use to
             ensure removal milestones are documented in the Comprehensive
             Environmental Response, Compensation, and Liability Information System
             (CERCLIS)?
          5. What processes and controls do EPA (regions and Headquarters) use to ensure
             accuracy and consistency of Superfund Cost Recovery Package Imaging and
             On-Line System (SCORPIOS) data?

Background
          The Comprehensive Environmental Response, Compensation, and Liability Act
          (CERCLA) authorizes EPA to expedite removing hazardous substances if these
          substances pose a threat. CERCLA authorizes EPA to recover Superfund cleanup
          expenses (costs) from responsible parties. In some cases, EPA pays for these
          removal actions and later recovers its costs from PRPs. However, the presence of
          viable PRPs, with their ability to pay cleanup costs, influences cost recovery. If
          no viable PRPs are associated with a removal site, or EPA does not locate viable
          PRPs, it may not be able to recover any Superfund expenditures at the site.

          Cost Recovery

          As part of its Superfund cost recovery process, EPA uses an automated system
          known as the Superfund Cost Recovery Package Imaging and On-Line System
          (SCORPIOS) to calculate Superfund site costs. SCORPIOS is a data repository
          from the EPA Integrated Financial Management System (IFMS). SCORPIOS


                                           1
                                                                                  09-P-0144


         includes both direct Superfund costs from IFMS and indirect rates, which are
         developed on a region and fiscal year specific basis, from data contained in IFMS.
         Direct Superfund costs include personnel costs, travel, and contract costs, among
         others. Indirect Superfund costs reflect costs for managing facilities and other
         Superfund overhead costs not linked to specific sites. Superfund sites and major
         site actions, such as removals and cost recovery, are tracked in CERCLIS.

Noteworthy Achievements
         According to EPA, their noteworthy achievements related to removal actions,
         removal expenditures, and cost recovery at non-NPL removal sites include:

         •   To address immediate threats to communities, EPA obligated more than
             $140.7 million to conduct and oversee 351 emergency response and removal
             actions in Fiscal Year (FY) 2007. These emergency response and removal
             actions ranged in size from a catastrophic explosion and fire in Danvers,
             Massachusetts, to a residential mercury release in Yakima, Washington.

         •   One of EPA’s FY 2008 enforcement goals is to address cost recovery at all
             National Priority List and non-National Priority List sites with a statute of
             limitations (SOL) on total unaddressed past costs equal to or greater than
             $200,000. In FY 2008, EPA achieved this goal for 100 percent of these sites,
             and for an average of 99 percent of these sites from FY 2005- FY 2007.

         •   Superfund officials have emphasized to EPA staff that PRPs should perform
             removal actions whenever possible. PRPs completed approximately one-half
             of the non-NPL removals from FY 2000- FY 2007. In FY 2008, PRPs
             completed 51 non-NPL removal actions under EPA enforcement instruments
             with values estimated by EPA at over $60 million. In the last 5 years, PRPs
             completed 191 non-NPL removals with values estimated by EPA at over $260
             million as a result of EPA enforcement efforts.

Scope and Methodology
         We completed our work from March 2008 to February 2009 in accordance with
         Government Auditing Standards, issued by the Comptroller General of the United
         States. Those standards require that we plan and perform the evaluation to obtain
         sufficient, appropriate evidence to provide a reasonable basis for our findings and
         conclusions based on our objectives. We believe the evidence obtained provides
         a reasonable basis for our findings and conclusions based upon our objectives.
         We assessed internal controls over the cost recovery process for non-NPL
         Superfund sites.

         We determined the internal controls EPA uses to monitor expenditures and cost
         recovery at non-NPL sites. From January 1, 2000, through December 31, 2007,
         there were 707 completed non-NPL removals in EPA’s CERCLIS database for


                                          2
                                                                           09-P-0144


Regions 5, 9, and 10. These removals include both EPA Superfund-financed and
PRP-led removals, but do not include removals at proposed NPL sites. Using
EPA’s SCORPIOS database, we identified total costs for those sites. We
identified site collection reports for 155 sites with costs greater than $500,000,
which represents approximately 85 percent of the total costs. We provided the
regions with summaries of these total cost and collections reports and asked
specific questions related to each site in terms of sites that were billed, unbilled,
or lacked an SSID, and the status of cost recovery efforts. In these responses,
regional staff provided various explanations for unrecovered costs at each site.
We did not review site files to verify the accuracy of these reasons. However, we
were able to classify these reasons into several categories, to include a lack of
viable PRPs, pending Government actions, or collected.

We examined internal controls by performing analyses to determine whether EPA
was achieving cost recovery within the statute of limitations for all non-NPL
removals with total costs greater $200,000. We analyzed CERCLIS data to
determine whether EPA uses CERCLIS to track removal milestones (Question 1).

We conducted site file reviews at the regions and looked for cost recovery
decision documents and PRP search records, and we reviewed policies and
procedures for conducting PRP searches (Question 2). We obtained a list of non-
specific site costs and the associated action codes from the Agency and checked
this against agency guidance (Question 3). We conducted interviews with
Regions 5, 9, and 10, and with the Office of Solid Waste and Emergency
Response (OSWER), the Office of Enforcement and Compliance Assurance
(OECA), and the Office of the Chief Financial Officer (OCFO) to determine
relevant policies and procedures in place, including system controls, regarding the
cost recovery process for non-NPL Superfund sites (Questions 1, 2, 3, 4, and 5).
We obtained and analyzed selected data from SCORPIOS and CERCLIS to
evaluate data quality between and within the systems (Questions 4 and 5).

Limitations

The following limitations potentially affect the interpretation of SCORPIOS
information:

•   Prior to 2001, EPA applied a different definition of indirect costs than it uses
    now. Because of this difference, applying the current indirect rate to past
    “direct” expenses may overstate or understate those past expenses.

•   Depending upon when EPA issues bills, a provisional (i.e., draft) or final
    indirect rate is applied to the total costs. Because provisional and final rates
    may be different, if EPA calculates sites costs using a provisional rate, future
    attempts to reconstruct past costs may not show the same results. SCORPIOS
    maintains only one indirect rate per region for each year. After EPA finalizes
    the final rate, SCORPIOS overwrites the provisional rate with the final.



                                  3
                                                                                     09-P-0144




          We reviewed a judgmental sample of 15 of 39 site files in regions 5, 9, and 10
          with total site costs greater than $2 million to examine documentation for PRP
          searches, including using the PRP checklist. We selected these sites based on
          their total costs in excess of $2 million and because CERCLIS indicated cost
          recovery efforts were complete. None of the site files reviewed contained the
          checklist of PRP search tasks described in EPA’s PRP Search Manual. EPA staff
          confirmed that no regions routinely use the PRP checklist.

Prior Evaluation Coverage
          The following recent EPA Office of Inspector General (OIG) reports addressed
          regional cost recovery issues or data issues pertaining to Superfund. Findings
          from these reports included erroneous bills and delays in issuing the bills, as well
          as issues with data integrity in CERCLIS.

          •   Comprehensive Environmental Response, Compensation, and Liability
              Information System (CERCLIS) Data Quality, Report No. 2002-P-00016,
              September 30, 2002.
          •   EPA Could Improve Its Redistribution of Superfund Payments to Specific
              Sites, Report No. 2006-P-00027, July 31, 2006.
          •   EPA Can Recover More Federal Superfund Money, Report No. 08-P-0116,
              March 26, 2008.




                                            4
                                                                                     09-P-0144




                                Chapter 2
         EPA Has Internal Controls to Recover
      Superfund Removal Costs, But Key Controls
                 Need Improvement

          Although EPA has some documented controls for conducting and documenting
          PRP searches, we found these controls are not followed. EPA does not
          consistently monitor PRP searches. Some regions have their own PRP search
          procedures, but EPA does not ensure PRP searches are consistently documented
          for all sites. PRP searches are a critical control in cost recovery. Limited controls
          in this area may result in missed cost recovery opportunities. EPA has an internal
          control to ensure that cost recovery at Superfund non-NPL removal sites is
          completed within the statute of limitations (SOL), but key controls for PRP
          searches need improvement.

Not All Costs Recovered at Non-NPL Removal Sites
          Within a sample of removal actions we reviewed with costs greater than
          $500,000, EPA collected from responsible parties approximately 11 percent
          ($31.4 of $294.5 million) of the Federal Government’s costs for conducting the
          removal actions. EPA staff gave reasons for not recovering all costs from these
          sites. According to EPA regional staff, about another 30 percent ($86 million) of
          the costs are pending further government action. EPA attributed most of the
          remaining $177.1 million of unrecovered costs to the lack of viable PRPs.

EPA Monitors the Statute of Limitations on Cost Recovery
          EPA has an internal control for addressing Superfund removal cost recovery
          within the SOL. The Agency has a Government Performance and Results Act
          (GPRA) measure for meeting the SOL requirement and has reported almost 100
          percent success. EPA staff stated they send a list out every year to address sites
          18 months ahead of the SOL expiration. Based on our review of CERCLIS data,
          22 of 152 (14.5 percent) removal sites appeared to have exceeded the SOL.
          However, our review confirmed that EPA had resolved the SOL issues at these
          sites. These sites appeared to have potential SOL issues in CERCLIS because
          regional staff had not updated CERCLIS to reflect the SOL resolution. In 2009,
          EPA plans to enhance the automated targeting of SOL sites.




                                            5
                                                                                   09-P-0144


EPA Oversight Needs to Include Routine Reviews of PRP Search
Status
          The PRP search process identifies PRPs for a site and establishes PRP liability,
          capability, and financial viability in order to compel PRPs to perform the response
          action or for the potential recovery of EPA's cleanup costs. PRP Search Starts
          and PRP Search Completions are program measures used to track PRP search
          progress and are identified in an Agency manual that describes how the Superfund
          program should be implemented. This manual is known as the Superfund
          Program Implementation Manual (SPIM).

          For the sites in our evaluation, we found that EPA oversight of PRP searches
          needs improvement. EPA does not consistently track PRP search start or
          completion milestones in CERCLIS or other reports. Of the 561 sites with site
          spill identification numbers (SSIDs) in our sample, only 116, or 21 percent, had
          PRP search completion dates in CERCLIS. Therefore, based on information
          available in CERCLIS, we were unable to determine from a national oversight
          perspective whether regional staff completed PRP searches for non-NPL removal
          sites. This causes uncertainty regarding completion of this critical step in cost
          recovery. Because PRP searches are a critical control in cost recovery, improved
          oversight controls in this area could increase EPA’s recovery of the Federal
          Government’s costs for conducting Superfund removals.

          EPA headquarters staff stated they do not oversee (monitor) the status of PRP
          searches through CERCLIS or Agency-wide reports. EPA provided summary
          examples of five separate regional procedures for monitoring PRP searches.
          These procedures vary among the regions and include generally using the date of
          the cost recovery decision document as the PRP search completion date, specific
          regional policies and procedures, documentation using a regional Enforcement
          First Report, and oversight by an enforcement coordinator. However, the
          effectiveness of these regional procedures is not verified by any Agency-wide
          reporting. The lack of Agency-wide PRP search reports and incomplete
          CERCLIS PRP search data provide little or no knowledge of the status of PRP
          searches at sites in each region or nationwide.

PRP Search Results Are Not Consistently Documented
          We found that EPA regions 5, 9, and 10, do not use a standard process to
          document the results of PRP searches. Our review of Superfund site files shows a
          lack of consistent and clear documentation of PRP searches.

          EPA published the PRP Search Manual Guidance (manual) in September 2003.
          The manual provides a framework for conducting complete and thorough PRP
          searches. The purpose of the PRP search is to identify the universe of PRPs with
          comprehensive evidence of liability at a site. The manual provides an outline of
          the general objectives of the PRP search, describes typical baseline and follow-up


                                           6
                                                                                                           09-P-0144


PRP search tasks, and provides                 C h e c k l is t for P R P S e a r c h Ta s k s :
specific tools and references. The             1.     A g e n c y R e c o r d C o lle c t io n & F ile R e v ie w
                                               2.     T it le S e a r ch
manual contains a checklist of                 3.     I n t e rv ie w w it h G o ve rn m e n t O ff ic ia ls
PRP search tasks (see Table 1)                 4.     R e c o rd s C o m p il a t io n
                                               5.     C o m p lia n c e H ist o r y
and a checklist for removal/pre-               6.     P R P S t a t u s / P R P H is to ry
remedial sites. Using the                      7.     P R P N a m e a n d A d d re s s U p d a t e
checklist is not required.                     8.     C E R C L A 1 0 4 (e ) L e tt e r s
                                               9.     F in a n ci a l S t a t u s
According to EPA staff, regions                1 0.   H is to ry o f S it e O p e ra t io n s
use the checklist as a guide along             1 1.   R e p o rt p re p a ra ti o n (P R P S e a rc h R e p o rt )
                                               1 2.   A e ria l p h o to g ra p h s a n d S a n b o r n M a p s
with their professional experience             1 3.   C E R C L A S u b p o e n a A u t h o rit y
to perform the PRP search. Staff               1 4.   F ie ld S u rv e y
further informed us that a one size            1 5.   I n d u s t ria l S u rv e y
                                               1 6.   P R P F ile R e v ie w
fits all checklist is not appropriate          1 7.   P ri va te C it iz e n / P R P I n t e rv ie w
due to difference in site-specific             1 8.   E P A In v e s t ig a tio n s
                                               1 9.   C ER C LIS
details, regions, and subject                  2 0.   W a s t e S tr e a m In ve n t o ry
matter.                                        2 1.   P ro c e ss C h e m is t ry A n a ly s is
                                               2 2.   D atabas e s
                                               2 3.   F in a n ci a l A s se ss m e n t
The SPIM requires that when a           2 4 . G e n e ra t o r R a n k in g
PRP search is complete, regions         2 5 . P ro p e rt y A p p r a is a l/ P ro p e rt y S u rv e y

should document in the site file     Table 1 – PRP Search Checklist.
that they have met all reasonable     (Source: EPA PRP Search Manual)
achievable criteria. According to
the SPIM, A PRP search completion constitutes the completion of the activities
taken by the region to identify PRPs at a site. In conducting the PRP search, the
region must consider which of the criteria outlined below are cost effective and
reasonable to meet relative to the anticipated overall cleanup costs at the site.
Upon completion, regions should document in the site file that they have met all
reasonable achievable criteria. Criterion 1 is mandatory for all PRP search
completions. The PRP search should ideally be completed prior to completion of
cleanup negotiations; however, it is recognized that this may not be achievable in
all situations. The recommended criteria for a thorough PRP search are:

         1.       Initiating a dialogue with early identified PRPs for the purpose of
                  providing an opportunity for PRP input into the PRP search.
         2.       Collecting the financial and contribution data needed to perform
                  equitable share calculations.
         3.       Following up on all leads as a way to identify parties to the site.
         4.       Making de minimis and non-exempt de micromis determinations
                  for all parties at the site.
         5.       Categorizing all parties [e.g., Generator/Transporter, Owner/-
                  Operator, Small Business ($2 million or less gross annual revenue
                  and 25 or fewer employees), Municipal Solid Waste Contributor,
                  etc.]; and
         6.       Performing a financial viability determination on all PRPs
                  asserting ability-to-pay problems.




                                         7
                                                                                    09-P-0144


         In our review of site files, we were unable to verify that the PRP search activities
         Regions 5, 9, and 10 performed were consistent with the manual guidance. PRP
         searches were not documented consistently in the site file.

Conclusions
         EPA has an internal control for addressing Superfund removal cost recovery
         within the statute of limitations, and has reported almost 100 percent success with
         this measure. Cost recovery from non-NPL removal sites is between 10 and 40
         percent. EPA staff attributed most of the unrecovered costs to a lack of viable
         PRPs. However, controls for tracking and documenting PRP searches lack
         consistent monitoring and verification. Improvements in oversight controls of
         PRP searches could potentially increase cost recovery for these sites.

Recommendations
         We recommend the Assistant Administrator for Enforcement and Compliance
         Assurance:

         2-1    Develop and implement a control to monitor the status and timeliness of
                PRP searches at non-NPL sites.

         2-2    Develop standard and mandatory regional requirements for PRP search
                documentation that regions should complete as part of the cost recovery
                decision document (closeout memo).

         2-3    Develop and implement a control to verify and monitor that regions have
                included PRP search documentation in the cost recovery decision
                document.

         2-4    Update PRP search guidance to reflect the mandatory requirements for
                PRP search documentation.

Agency Comments and OIG Evaluation
         The OIG made changes to the report based on the Agency’s comments where
         appropriate. Appendix A provides the full text of the Agency comments and OIG
         response.

         EPA generally agreed with all recommendations. For recommendation 2-1, EPA
         stated that it agreed with the purpose of the recommendation. In its comments,
         the Agency provided examples of ongoing activities it believed addressed
         recommendation 2-1 and demonstrated controls were in place. However, more is
         needed to ensure that these control activities are working as designed and
         intended. We discussed with the Agency additional actions needed, such as



                                           8
                                                                        09-P-0144


documenting these activities in the SPIM. The Agency agreed to take additional
actions.

The OIG agrees with OECA’s response to recommendations 2-2 through 2-4. We
accept OECA’s proposed limitation to recommendations 2-2 and 2-3 to include
only non-NPL removal sites with unaddressed past costs in excess of $200,000.

We agree that the proposed actions for recommendations 2-1 through 2-4, when
implemented, will meet the intent of the recommendations. All recommendations
are open with agreed-to actions pending. In its final response to this report, EPA
should provide estimated or actual completion dates for these recommendations.




                                 9
                                                                                 09-P-0144




                               Chapter 3
         EPA Does Not Routinely Review Some
         Superfund Accounts That Can Contain
            Recoverable Government Costs

         EPA may be missing opportunities to recover the government’s costs for
         conducting all Superfund removal activities. EPA may incur Superfund expenses
         before a formal site-specific cost account is established. When this happens, EPA
         can identify these costs under a general and non-site-specific Identifier Code
         (ZZ), and, after later review, transfer the costs if a site-specific account is
         established. However, EPA does not always review these costs for transfer to
         formal site-specific Superfund accounts. Doing so would then allow these costs
         to be reviewed for possible recovery. ZZ costs are large, yet EPA does not have
         internal controls for annually reviewing all ZZ costs. Our work has identified
         costs that should have been reviewed for proper coding or transfer to formal site-
         specific accounts.

EPA Does Not Review Non-Site-Specific Accounts
         EPA’s financial management system accounts for and accumulates response
         costs, such as removal costs, at a site-specific level. EPA financial systems
         formally track site-specific costs using unique site spill identification numbers
         (SSIDs). Generally, EPA establishes SSIDs when there is a reasonable
         expectation that a response action will occur. When EPA establishes an SSID,
         EPA can identify and track the Federal Government’s site-specific costs that may
         later be recovered from responsible parties.

         EPA engages in pre-removal activities at sites that do not have an SSID, such as
         preliminary site assessments. EPA uses the ZZ code to track these Superfund
         costs. When EPA’s pre-removal activities do not result in a removal action, costs
         can remain categorized as ZZ costs. However, by the time EPA has taken a
         removal action, an SSID should be assigned, and EPA should reassign appropriate
         ZZ costs to the formal SSID. Following this process should allow all the
         Government’s site costs to be tracked and identified for potential recovery.

         Between calendar years 2000 and 2007, ZZ costs were approximately $90 million
         in Regions 5, 9, and 10. Nearly $25 million could be costs that can be assigned to
         a specific site for possible recovery, or should have been coded to another
         account. This has not occurred because neither the regions, nor OECA or OCFO
         Headquarters have implemented controls to annually review or monitor ZZ costs.



                                         10
                                                                                  09-P-0144


         On December 23, 2008, OCFO, issued a directive titled Direct Charging of
         Superfund Costs: Site Specific Cost Accounting Methods, which includes the
         following statement regarding ZZ accounts:

                The approving official, usually the project officer, should request
                adjustment of previous charges from the ZZ identifier to the site
                account during the first billing cycle after the site-specific SSID
                code is established. Intramural costs also should be adjusted
                during the first billing cycle after the site-specific SSID code is
                established.

Recommendations
         We recommend that the EPA Chief Financial Officer, in cooperation with the
         Assistant Administrator for Solid Waste and Emergency Response and the
         Assistant Administrator for Enforcement and Compliance Assurance, require
         Regions 5, 9, and 10 to:

         3-1    Perform a review of regional ZZ accounts to verify the appropriate use of
                the code, and reassign costs to the appropriate account or SSID, including
                a summary of the reassignment of the estimated $25 million in miscoded
                ZZ costs.

         We recommend that the EPA Chief Financial Officer, in cooperation with the
         Assistant Administrator for Solid Waste and Emergency Response and the
         Assistant Administrator for Enforcement and Compliance Assurance, require all
         EPA regions to:

         3-2    Perform an annual review of ZZ accounts to verify the appropriate use of
                the code and reassign costs to the appropriate account or SSID.

Agency Comments and OIG Evaluation
         The OIG made changes to the report based on the Agency’s comments where
         appropriate. Appendix A provides the full text of the Agency comments and OIG
         response.

         EPA concurred with all recommendations. EPA proposed limitations on the
         review of costs in recommendation 3-1 to include only extramural costs for the
         FYs 2005-2007. We accept these limitations, with the qualification that EPA
         provides documentation of the quantity of extramural costs in the summary of
         reassigned of costs. We agree with the proposed actions in response to
         recommendation 3-2, which will create an annual review process for ZZ
         expenditures.




                                         11
                                                                        09-P-0144


We agree that the proposed actions for recommendations 3-1 and 3-2, when
implemented, will meet the intent of the recommendations. All recommendations
are open with agreed-to actions pending. In its final response to this report, EPA
should provide estimated or actual completion dates for these recommendations.




                                12
                                                                                     09-P-0144




                                 Chapter 4
       EPA Information Systems Necessary for
      Cost Recovery Have Data Integrity Problems

          CERCLIS and SCORPIOS database systems lack internal controls necessary for
          effective cost recovery and have data quality problems that may affect EPA’s
          ability to identify costs associated with a specific site. For example, the lack of a
          CERCLIS identification number (ID) or an invalid SSID in SCORPIOS, or major
          differences in the site name could cause regional staff to overlook some costs
          associated with a site. These data quality issues are caused by not routinely
          comparing data elements between and within the two systems. As a result, cost
          recovery could be compromised by difficulties in associating site costs with the
          appropriate SSID.

CERCLIS Sites Are Not Always Identified in SCORPIOS
          Removal sites are identified in CERCLIS by their 12-digit CERCLIS ID, while
          cost recovery in SCORPIOS is based on the 4-digit SSID. CERCLIS contains
          information on site actions, while SCORPIOS contains information on total site
          costs and cost recovery. For effective cost recovery, costs associated with an
          SSID must be associated with the CERCLIS ID. This may be accomplished by
          storing both IDs in SCORPIOS, or by matching the sites in the two systems based
          on the site name.

          CERCLIS contains data on approximately 62,000 Superfund sites, nationwide.
          SCORPIOS contains information on approximately 14,000 SSIDs assigned for
          site-specific cost recovery. We found the following limitations in associating site
          information between CERCLIS and SCORPIOS:

          •   Missing CERCLIS IDs – In SCORPIOS, the total costs and SSIDs for a site
              can be identified by querying on the CERCLIS ID. During the course of this
              review, we discovered some SSIDs without CERCLIS IDs. Analysis of
              SCORPIOS data revealed that CERCLIS IDs may be missing from up to 15
              percent of SSIDs for sites in CERCLIS. Identifying the SSIDs and costs for
              these sites must therefore rely on less exact methods to identify the SSIDs,
              such as matching by the site names in CERCLIS and SCORPIOS. After
              discussing this issue, EPA regions have started adding CERCLIS IDs to sites
              in SCORPIOS.

          •   Different site names – Of sites in SCORPIOS with valid CERCLIS IDs, 59
              percent have different site names than those in CERCLIS. Most of these
              appear to be minor discrepancies such as abbreviations, punctuation, or


                                           13
                                                                                     09-P-0144


              additional characters at the end of one of the names. However, some of the
              names bear little resemblance to each other, and would be in different
              locations in an alphabetic list of site names. This can complicate the ability to
              correlate SCORPIOS SSID with CERCLIS sites, and could potentially reduce
              cost recovery.

SSIDs and Names in SCORPIOS Have Some Data Quality Problems
          Complete cost recovery through SCORPIOS relies on validly identifying costs by
          the SSID. Some SSID data quality issues exist in SCORPIOS that could prevent
          the appropriate identification of costs for a site and thereby reduce potential cost
          recovery. These issues include:

          •   No site name associated with an SSID – Forty-four SSIDs have a name
              indicated as “Site name does not exist.” An additional 46 SSIDs have names
              such as “Unknown,” “Do not use – inactive,” “SSID not used,” or other text
              that indicates the SSID is a duplicate or inappropriate. However, costs can
              still be associated with these SSIDs in SCORPIOS, and some of these SSIDs
              have total costs listed. In these cases, any costs associated with the SSIDs
              could easily be overlooked when regions attempt to identify site-specific costs
              for recovery.

          •   Use of problematic characters in SSIDs – Some SSIDs contain special
              keyboard characters such as “!,” “#,” “$,” “*,” and “@.” Some SSIDs have
              similar-looking values but use an “I” instead of a numeric “1” or an “O”
              instead a numeric “0.” Mistakes can easily occur in keying these characters,
              by mistakenly typing or not typing a special character by using or not using
              the “shift” key, or by misreading an “I,” “1,” “O,” or “0.” As a result, site
              costs may be associated with an incorrect SSID.

          •   Different site names – Some sites have multiple SSIDs. Some of these sites
              have site names that are different from each other. In addition, some site
              names begin with a space or the word “the,” which complicates an effort to
              locate a site by name on an alphabetic list.

EPA Public Information Systems Yield Different Results
          EPA has at least three different Superfund Web-based queries accessible by the
          public. These systems are the CERCLIS Basic/Advanced queries, the Superfund
          Information System (SIS) and Envirofacts. These systems may yield different
          results to the same query, or misleading results to a query, that could misinform a
          member of the public attempting to obtain information on Superfund sites.
          Examples are:

          •   CERCLIS Basic/Advanced query is not updated – This query has not been
              updated with all data since January 9, 2003, but this qualification is not


                                           14
                                                                                     09-P-0144


               readily apparent. As a result, queries may not provide the same information
               as SIS and Envirofacts. Further, the system provides different categories of
               searches than SIS does.

         •     SIS contains information not in Envirofacts – The Office of Environmental
               Information administers the Envirofacts database, and SIS may contain
               information that is different from or not present in EPA's Envirofacts. Data
               not present in Envirofacts includes sub-actions such as the issuance of notice
               letters, and actions that have a start date but no completion date.

         •     SIS queries are inconsistent – Some Superfund actions have a completion date
               but no start date. If these actions are queried by a start date range in SIS, no
               results will be found even though the action exists and has been completed.
               This situation can be misleading.

Conclusions
         Various data quality issues within SCORPIOS, and data inconsistencies between
         SCORPIOS and CERCLIS, indicate missing internal controls that could reduce
         cost recovery. EPA’s public information systems present potentially conflicting
         results by providing differing answers to similar queries among various systems.

Recommendations
         We recommend the EPA Chief Financial Officer:

         4-1      Implement process controls to ensure consistent site data in SCORPIOS
                  and CERCLIS, including mechanisms to ensure valid CERCLIS IDs are
                  included in SCORPIOS for all SSIDs.

         4-2      Implement system controls to ensure only valid SSIDs exist in
                  SCORPIOS, including processes to correct SSIDs without a site name and
                  SSID values that have been incorrectly entered.

         We recommend the EPA Assistant Administrator for Solid Waste and Emergency
         Response:

         4-3      Until fixed, qualify the discrepancies among queries of EPA’s public
                  Internet data systems CERCLIS Basic/Advanced Query, SIS, and
                  Envirofacts. These qualifications should include information on the
                  Internet query sites that alerts the public to the potential differences among
                  EPA’s systems.




                                            15
                                                                                 09-P-0144


Agency Comments and OIG Evaluation
         The OIG made changes to the report based on the Agency’s comments where
         appropriate. Appendix A provides the full text of the Agency comments and OIG
         response.

         EPA concurred with all recommendations. EPA proposed actions to address the
         data quality issues identified in recommendations 4-1 and 4-2, and to add
         additional disclaimers to address recommendation 4-3.

         We agree that the proposed actions for recommendations 4-1 through 4-3, when
         implemented, will meet the intent of the recommendations. All recommendations
         are open with agreed-to actions pending. In its final response to this report, EPA
         should provide estimated or actual completion dates for these recommendations.




                                         16
                                                                                                                                             09-P-0144



                                  Status of Recommendations and
                                    Potential Monetary Benefits
.
                                                                                                                                   POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                       Planned
    Rec.    Page                                                                                                      Completion   Claimed    Agreed To
    No.      No.                          Subject                            Status1         Action Official             Date      Amount      Amount

    2-1       8     Develop and implement a control to monitor the             O        Assistant Administrator for
                    status and timeliness of PRP searches at non-NPL                        Enforcement and
                    sites.                                                               Compliance Assurance

    2-2       8     Develop standard and mandatory regional                    O        Assistant Administrator for
                    requirements for PRP search documentation that                          Enforcement and
                    regions should complete as part of the cost                          Compliance Assurance
                    recovery decision document (closeout memo).

    2-3       8     Develop and implement a control to verify and              O        Assistant Administrator for
                    monitor that regions have included PRP search                           Enforcement and
                    documentation in the cost recovery decision                          Compliance Assurance
                    document.

    2-4       8     Update PRP search guidance to reflect the                  O        Assistant Administrator for
                    mandatory requirements for PRP search                                   Enforcement and
                    documentation.                                                       Compliance Assurance

    3-1       11    Require Regions 5, 9, and 10 to perform a review           O         Chief Financial Officer,                  $25,000
                    of regional ZZ accounts to verify the appropriate                    in cooperation with the
                    use of the code, and reassign costs to the                          Assistant Administrator for
                    appropriate account or SSID, including a summary                   Solid Waste and Emergency
                    of the reassignment of the estimated $25 million in                Response and the Assistant
                    miscoded ZZ costs.                                                       Administrator for
                                                                                             Enforcement and
                                                                                         Compliance Assurance

    3-2       11    Require all EPA regions to perform an annual               O         Chief Financial Officer,
                    review of ZZ accounts to verify the appropriate use                  in cooperation with the
                    of the code and reassign costs to the appropriate                   Assistant Administrator for
                    account or SSID.                                                   Solid Waste and Emergency
                                                                                       Response and the Assistant
                                                                                             Administrator for
                                                                                             Enforcement and
                                                                                         Compliance Assurance

    4-1       15    Implement process controls to ensure consistent            O          Chief Financial Officer
                    site data in SCORPIOS and CERCLIS, including
                    mechanisms to ensure valid CERCLIS IDs are
                    included in SCORPIOS for all SSIDs.

    4-2      15     Implement system controls to ensure only valid             O          Chief Financial Officer
                    SSIDs exist in SCORPIOS, including processes to
                    correct SSIDs without a site name and SSID values
                    that have been incorrectly entered.

    4-3       15    Until fixed, qualify the discrepancies among queries       O        Assistant Administrator for
                    of EPA’s public Internet data systems CERCLIS                      Solid Waste and Emergency
                    Basic/Advanced Query, SIS, and Envirofacts.                                 Response
                    These qualifications should include information on
                    the Internet query sites that alerts the public to the
                    potential differences among EPA’s systems.

1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                   17
                                                                                          09-P-0144



                                                                                     Appendix A

                   Agency Response to Draft Report
                         and OIG Evaluation
OIG Note: The Agency response was dated and received March 19, 2009. Page numbers
referenced in the Agency response refer to pages of the Draft Report, and may not be accurate
references to pages in this final report.

MEMORANDUM

SUBJECT:       Response to OIG Draft Evaluation Report, “EPA Needs to Improve Internal Controls
               to Increase Cost Recovery,” Assignment Number: 2008-0004, February 17, 2009

FROM:          Catherine R. McCabe
               Acting Assistant Administrator

TO:            Carolyn Copper, Director
               Program Evaluation
               Hazardous Waste Issues
               Office of Inspector General

        Thank you for giving us the opportunity to review the subject OIG draft evaluation report.
The Office of Enforcement and Compliance Assurance (OECA), Office of the Chief Financial
Officer (OCFO), and Office of Solid Waste and Emergency Response (OSWER) have reviewed the
report, identified the lead office for each OIG recommendation, and responded to each
recommendation. I am responding to the draft report on behalf of OECA, OSWER and OCFO. Our
staffs have told us that this evaluation went smoothly and that they have a good working relationship
with OIG staff. We appreciate your help to continually improve the Superfund program. We
particularly appreciate your approach to the informal review of the discussion draft and your
responsiveness to our ideas and suggestions.

       OECA, OCFO, and OSWER provide the following comments in response to this report:

Recommendation 2.1: OIG recommends that the Assistant Administrator for Enforcement and
Compliance Assurance develop and implement a control to monitor the status and timeliness of PRP
searches at non-NPL sites.

OECA Response: OECA agrees with the purpose of this recommendation. OECA notes that it
currently relies on a series of existing controls relating to the status and timeliness of PRP searches.
OECA believes that taking an enforcement action against PRPs, either to perform the response
action or to seek cost recovery, is indicative of a timely PRP search. OECA currently tracks these
activities in CERCLIS. Another indicator that a PRP search is complete is the issuance of a decision
not to pursue cost recovery. OECA also tracks these decisions in CERCLIS. As acknowledged in
this report by the OIG, OECA has a process in place to ensure that either a cost recovery action is


                                                 18
                                                                                         09-P-0144


taken or a decision is made not to pursue cost recovery prior to the expiration of the statute of
limitations. This helps ensure that PRP search activities are completed in a timely manner. This
process applies to all Superfund sites with unaddressed past costs greater than $200,000, including
non-NPL removals. We believe a system of “controls” based on the monitoring of these elements
will ensure that the timeliness of PRP searches is monitored adequately.

OIG Response: The steps identified in OECA’s response to recommendation 2-1 appear to
constitute sufficient information to measure the status and timeliness of PRP searches at non-
NPL sites. However, this information functions as a control only if EPA staff monitors the
information to ensure PRP searches are performed in a timely manner. In additional discussions,
OECA has identified an existing report from CERCLIS that summarizes the information. This
report and its use should be included the SPIM, and the anticipated date for changes to the SPIM
should be included in EPA’s 90-day response to this report. The recommendation is open with
agreed-to actions pending.

Recommendation 2.2: OIG recommends that the Assistant Administrator for Enforcement and
Compliance Assurance develop standard and mandatory requirements for PRP search documentation
that Regions should complete as part of the cost recovery decision document (closeout memo).

OECA Response: OECA agrees with this recommendation. OECA agrees to modify its case
conclusion/write-off guidance to require that, for non-NPL removal sites having unaddressed past
costs greater than $200,000 where the region decides not to pursue cost recovery, the decision
document/close out memorandum for that site will reference all PRP search documents used to make
that decision and identify where those documents are located. Please note that the decision
document memo, and the supporting documents it references, would be treated as enforcement
sensitive and would not be subject to release under FOIA.

We plan to limit this requirement to decisions not to pursue cost recovery because for all other sites
the PRP search activities are well documented in the “Findings of Fact” portion of any orders issued
or in the 10-point settlement analysis associated with any judicial enforcement action.

OIG Response: The OIG accepts OECA’s suggestion to limit the applicability of the guidance
to sites with unaddressed past costs greater than $200,000. The recommendation is open with
agreed-to actions pending.

Recommendation 2.3: OIG recommends that the Assistant Administrator for Enforcement and
Compliance Assurance develop and implement a control to verify and monitor that regions have
included PRP search documentation in the cost recovery decision document.

OECA Response: OECA agrees with this recommendation. OECA will perform an annual
evaluation using a sample of non-NPL removals with unaddressed past costs greater than $200,000
where a decision was made not to pursue cost recovery. OECA will use criteria that include, but are
not limited to, the number and dollar value of the decision documents in a given region during the
prior fiscal year.




                                                19
                                                                                         09-P-0144


OIG Response: The OIG accepts OECA’s suggestion to limit the annual evaluation to non-NPL
removal sites with unaddressed past costs greater than $200,000, where a decision was made not
to pursue cost recovery. The recommendation is open with agreed-to actions pending.

Recommendation 2.4: OIG recommends that the Assistant Administrator for Enforcement and
Compliance Assurance update PRP search guidance to reflect the mandatory requirements for PRP
search documentation.

OECA Response: OECA agrees with this recommendation. OECA will update the PRP search
manual to reflect mandatory documentation requirements added to the case conclusion/write-off
guidance as described in our response to recommendation 2.2.

OIG Response: The OIG agrees with OECA’s proposed actions in response to recommendation
2-4. The recommendation is open with agreed-to actions pending.

Recommendation 3.1: OIG recommends that the EPA Chief Financial Officer, in cooperation
with the Assistant Administrator for Solid Waste and Emergency Response and the Assistant
Administrator for Enforcement and Compliance Assurance, require Regions 5, 9, 10 to perform a
review of Region ZZ accounts from 2000 through 2007 to verify the appropriate use of the code
and reassign the costs to the appropriate account or SSID, including a summary of the estimated
$25 million in miscoded ZZ costs.

OCFO Response: OCFO partially agrees with this recommendation. Since the discussion draft
was provided in December 2008, Region 5 has already conducted an initial review of its ZZ
expenditures, and OCFO is working with Region 5 to document its redistribution efforts. OCFO
will conduct similar efforts with Regions 9 and 10. However, according to CERCLA
§113(g)(2)(A), the Statute of Limitations (SOL) for cost recovery is three years from completion
of a removal action. Because the SOL will have expired for older expenditures, OCFO will limit
the review to only FY 2005-FY 2007 expenditures. OCFO will also limit this FY 2005-FY 2007
expenditures review to extramural funds only, since approximately 95 percent of all ZZ costs in
Regions 5, 9, 10 for this period were charged to contracts and grants.

OIG Response: The OIG accepts the OCFO’s proposed limitations in the review of ZZ costs.
However, we expect the OCFO to fully document and quantify these limitations in the summary
of the estimated $25 million. The anticipated date of this summary should be included as a
milestone in the 90-day response. The recommendation is open with agreed-to actions pending.

Recommendation 3.2: OIG recommends that the EPA Chief Financial Officer, in cooperation
with the Assistant Administrator for Solid Waste and Emergency Response and the Assistant
Administrator for Enforcement and Compliance Assurance, require all regions to perform an
annual review of ZZ accounts to verify the appropriate use of the code and reassign costs to the
appropriate code or SSID.

OCFO Response: OCFO agrees with this recommendation and will require each Region to
perform an annual review of ZZ expenditures to verify the appropriate use of the ZZ SSID and
associated codes, and to ensure that ZZ expenditures are redistributed to appropriate accounts, if



                                                20
                                                                                       09-P-0144


necessary. The annual certification validating these costs will be implemented as part of the
Agency’s annual Management Integrity Assurance Letter process starting in 2010.

OIG Response: The OIG agrees with the OCFO’s proposed actions in response to
recommendation 3-2. The recommendation is open with agreed-to actions pending.

Recommendation 4.1: OIG recommends that the EPA Assistant Administrator for Enforcement
and Compliance Assurance and the Assistant Administrator for Solid Waste and Emergency
Response implement process controls to ensure consistent site data in SCORPIOS and CERCLIS
including mechanisms to ensure valid CERCLIS IDs are included in SCORPIOS for all SSIDs.

OCFO Response: This recommendation should be directed to OCFO, the owner of SCORPIOS.

OCFO agrees with this recommendation. OCFO wants to clarify that SCORPIOS contains non-
Superfund site information because it is also used as cost recovery system for Brownfields, OPA
(Oil Pollution Act), LUST (Leaking Underground Storage Tank) and other appropriations. These
sites will not have CERCLIS IDs. Therefore, OCFO in conjunction with the Regions, OECA, and
OSWER, will work to link Superfund site IDs with CERCLIS IDs for all those Superfund sites in
SCORPIOS that receive a CERCLIS ID.

OIG Response: OIG agrees with the OCFO’s proposed actions in response to recommendation
4.1. The action official will be changed in the report to the EPA Chief Financial Officer. The
recommendation is open with agreed-to actions pending.

Recommendation 4.2: OIG recommends that the EPA Assistant Administrator for Enforcement
and Compliance Assurance and the Assistant Administrator for Solid Waste and Emergency
Response implement system controls to ensure only valid SSIDs exist in SCORPIOS including
processes to correct SSIDs without a site name and SSID values that have been incorrectly entered.

OCFO Response: This recommendation should be directed to OCFO, the owner of SCORPIOS.

OCFO agrees with this recommendation and plans to implement system controls to ensure only valid
site identifiers exist in SCORPIOS. OCFO will work with OECA, OSWER, and the Regions to
review the SCORPIOS database, and take necessary actions to remove inaccurate site names and
SSIDs from the database.

OIG Response: The OIG agrees with the OCFO’s proposed actions in response to
recommendation 4.2. The action official will be changed in the report to the EPA Chief
Financial Officer. The recommendation is open with agreed-to actions pending.

Recommendation 4.3: OIG recommends that the EPA Assistant Administrator for Enforcement
and Compliance Assurance and the Assistant Administrator for Solid Waste and Emergency
Response, until fixed, qualify the discrepancies among queries of EPA’s public Internet data systems
CERCLIS Basic/Advanced Query, SIS, and Envirofacts. These qualifications should include
information on the Internet query sites that alerts the public to the potential differences among
EPA’s systems.



                                               21
                                                                                        09-P-0144




OSWER Response: This recommendation should be directly solely to the Assistant Administrator
for OSWER, the owner of CERCLIS.

OSWER agrees with this recommendation. For the CERCLIS basic and advanced query, the system
currently contains the following disclaimer:

     Disclaimer
     The data contained in these reports are intended solely for use by employees of the U.S.
     Environmental Protection Agency (EPA) for management of the Superfund program. They are
     not intended for use in calculating Cost Recovery Statutes of Limitation and cannot be relied
     upon to create any rights, substantive or procedural, enforceable by any party in litigation with
     the United States. EPA reserves the right to change these data at any time without public
     notice.

OSWER proposes to add the following language to the disclaimer:

     Data elements may not be updated. Search capabilities may differ from other Superfund
     site search query pages and EPA’s Envirofacts.

With respect to the Superfund Information System (SIS), OSWER proposes to add a disclaimer link
to the SIS query page with the following language:

     The data contained in these reports are intended solely for use by employees of the U.S.
     Environmental Protection Agency (EPA) for management of the Superfund program. They are
     not intended for use in calculating Cost Recovery Statutes of Limitation and cannot be relied
     upon to create any rights, substantive or procedural, enforceable by any party in litigation with
     the United States. EPA reserves the right to change these data at any time without public
     notice.

     Data elements may not be updated. In accordance with the Superfund Program
     Implementation Manual (SPIM), not all actions require a start date or a completion date.
     Search capabilities may differ from other Superfund site search query pages and EPA’s
     Envirofacts. The Envirofacts database is administered by the Office of Environmental
     Information, and the Superfund Information System may contain information which is
     different from, or not present in Envirofacts.

OIG Response: The OIG agrees with OSWER’s proposed actions in response to
recommendation 4-3. The action official will be changed in the report to the EPA Assistant
Administrator for Solid Waste and Emergency Response. The recommendation is open with
agreed-to actions pending.




                                               22
                                                                                         09-P-0144


ADDITIONAL COMMENTS:

OIG Response: We modified text of the report as appropriate, based on Agency comments in
this section. Specific OIG comments are included in this section only in response to Agency
comments on ZZ costs.

At a Glance –

“What We Found”

We ask that the second sentence in paragraph 2 of this section be modified to read: “EPA reports
show that the Agency has a high rate of success in addressing cost recovery requirements prior to the
expiration of the SOL.” (Currently the sentence reads: EPA reports show that the Agency has a
high rate of success in complying with cost recovery requirements within the SOL.)

Chapter 1, Introduction –

“Cost Recovery”

The second sentence of this section states that the Superfund Cost Recovery Package Imaging and
On-Line System (SCORPIOS) includes both indirect and direct Superfund costs. Actually,
SCORPIOS contains direct costs from IFMS and indirect rates which are developed, on a Region
and Fiscal Year specific basis, from data contained in IFMS.

“Noteworthy Achievements”

We suggest the first sentence of the first bullet of this section be modified by changing the phrase
“total past costs” to “total unaddressed past costs” to more accurately reflect OECA’s GPRA goal.

We would like to include a statement with respect to OECA’s accomplishments in the removal
enforcement area, specifically, having PRPs perform removal actions rather than pursuing them in
cost recovery. Therefore, we ask that you add the following bullet to this section:

   •   In FY 2008, PRPs completed 51 non-NPL removal actions under EPA enforcement
       instruments valued at over $60 million. In the last 5 years, PRPs completed 191 non-NPL
       removals valued at over $260 million as a result of EPA enforcement efforts.

“Scope and Methodology”

Paragraph 2 references 707 completed non-NPL removals during January 1, 2000 through December
31, 2007, in Regions 5, 9, and 10. We ask that the report explain that this number includes both
Fund-lead and PRP-lead removals and does not include removals at Proposed NPL sites.




                                                23
                                                                                          09-P-0144


“Limitations”

We suggest the second sentence of the first bullet be changed to say: “Because of this difference,
applying the current indirect rate to past “direct” expenses may overstate or understate those past
expenses.”

Chapter 2, “EPA Has Internal Controls to Recover Superfund Removal Costs, but Key
Controls Need Improvement”

“EPA Does Not Oversee PRP Searches”

Although OECA does not review each individual PRP search, we do track when the regions compel
PRPs to perform the response action or pursue PRPs for cost recovery. OECA has not engaged in
routine reviews of regional decisions not to pursue cost recovery to ensure that those decisions are
supported with adequate PRP search documentation; however, we have performed such reviews on
an ad-hoc basis. We believe that a more appropriate title for this section would be: “EPA Oversight
Needs to Include Routine Review of Decisions Not to Seek Cost Recovery” and ask that you
consider making this change.

To reflect the dual purpose of PRP searches, we request that the first sentence of this section be
changed to read as follows: “The PRP search process identifies PRPs for a site and establishes PRP
liability, capability, and financial viability in order to compel PRPs to perform the response action or
for the potential recovery of EPA’s cleanup costs.” This statement conveys EPA’s first priority with
respect to a PRP search, which is to obtain information necessary to get PRPs to perform the
response action. Only in circumstances where there is the need to take action quickly (e.g.,
emergency removal actions) or in the absence of cooperative or viable PRPs is the primary goal of
the PRP search to support cost recovery.

On page 6 the title of Table 1 (excerpted from the PRP Search Manual) is “PRP Search Checklist”
rather than “PRP Checklist.”

We recommend on Page 6 that the entire PRP Search Completion language from the SPIM be
included rather than just including the criteria. As such, we request that the OIG insert the following
language prior to the criteria:

       A PRP search completion constitutes the completion of the activities taken by the region to
       identify PRPs at a site. In conducting the PRP search, the region must consider which of the
       criteria outlined below are cost effective and reasonable to meet relative to the anticipated
       overall cleanup costs at the site. Upon completion, regions should document in the site file
       that they have met all reasonable achievable criteria. Criterion 1 is mandatory for all PRP
       search completions. The PRP search should ideally be completed prior to completion of
       cleanup negotiations; however, it is recognized that this may not be achievable in all
       situations. The recommended criteria for a thorough PRP search are:

We also want to make you aware that since the OIG began its research, these criteria have been
modified in the revised version of the PRP Search Manual, which we’re expecting to finalize in



                                                 24
                                                                                        09-P-0144


2009, and also will be modified in the next revision of the SPIM. We’ve attached the modified
criteria, for your reference.

Chapter 3, “EPA Does Not Review Some Superfund Accounts That Can Contain Recoverable
Government Costs”

EPA requests that the title to this chapter be modified as follows: “EPA Does Not Routinely Review
Some Superfund Accounts That Can Contain Recoverable Government Costs.”

The OIG report implies that the only reason that $25 million of ZZ costs have not been
reassigned to an SSID is that they haven't been reviewed. While we agree with the need for
Regions to review ZZ costs, we ask that the OIG Report acknowledge that there are legitimate
reasons why some significant costs will remain in ZZ accounts. For example, many removal
assessments do not result in an EPA removal action, and therefore an SSID is never established.
Some of these assessments can be quite expensive, especially if they include laboratory costs.

OIG Response: The text in the report was modified to indicate that there can be reasons for
costs remaining in ZZ accounts. The report correctly states that $25 million of ZZ costs could be
costs that were incorrectly assigned because they were not reviewed by EPA. According to
information supplied by EPA, ZZ costs were $90 million in Regions 5, 9, and 10. Almost $25
million of these costs appear to have been miscoded according to EPA’s criteria in the SPIM.

“EPA Does Not Review Non-Site-Specific Accounts”

We ask that the OIG Report acknowledge a recent OCFO directive on Superfund site cost
accounting. On December 23, 2008, OCFO, issued a directive titled Direct Charging of
Superfund Costs: Site Specific Cost Accounting Methods. Among other things, this directive
identifies a "key internal control" that directly addresses the need for Regions to provide EPA
finance centers, in a timely manner, the site-specific accounting information needed to
redistribute costs that were recorded with a ZZ identifier prior to establishment of an SSID code.
Specifically, the directive says on page 11:

       The approving official, usually the project officer, should request adjustment of previous
       charges from the ZZ identifier to the site account during the first billing cycle after the
       site-specific SSID code is established. Intramural costs also should be adjusted during the
       first billing cycle after the site-specific SSID code is established.

Chapter 4, “EPA Information Systems Necessary for Cost Recovery Have Data Integrity
Problems”

“EPA Public Information Systems Yield Different Results”

We request that the OIG clarify in the first bullet on page 13 that the Envirofacts database is
administered by the Office of Environmental Information, and that the Superfund Information
System may contain information which is different from or not present in EPA’s Envirofacts.



                                                25
                                                                                       09-P-0144


We appreciate the opportunity to comment on the draft report. We look forward to working with
you on this and other matters in the future. Should you have any questions regarding this response,
please contact Gwendolyn Spriggs, OECA’s Audit Follow-Up Coordinator, at 202-564-2439.

Attachment

cc:    M. Owen (OIG)
       B. Breen (OSWER)
       M. Froehlich (OCFO)
       M. Mulkey (OECA/OSRE)
       E. Gilberg (OECA/OSRE)
       J. Woolford (OSWER/OSRTI)
       E. Southerland (OSWER/OSRTI)
       D. Deitrich (OSWER/OEM)
       D. Tulis (OSWER/OEM
       M. Schneider (OECA/OAP)
       S. Silzer (OCFO/OFM)
       K. O’Brien (OCFO/OTS)
       G. Spriggs (OECA/OAP)
       J. Webster (OSWER)
       K. Mainess (OCFO)
       B. Freggens (OCFO)




                                               26
                                                                                          09-P-0144


                                              Attachment

PRP Search Completions as defined in the revisions of the PRP Search Manual, currently in
progress.


A PRP search completion constitutes the completion of the activities taken by the region to identify
PRPs at a site. In conducting the PRP search, the region must consider which of the criteria outlined
below are cost effective and reasonable to meet relative to the anticipated overall cleanup costs at the
site. Upon completion, regions should document in the site file that they have met all reasonable
achievable criteria. Criteria 1, below, is mandatory for all PRP search completions. The PRP search
should ideally be completed prior to completion of cleanup negotiations; however, it is recognized
that this may not be achievable in all situations. The recommended criteria for a thorough PRP
search are:

1. PRPs have been afforded opportunities to participate in or contribute to the PRP search, and the
   information contributed has been verified and/or authenticated and incorporated into the PRP
   search;

2. All relevant and material leads from CERCLA Section 104(e) responses, interviews, and other
   primary or source documents have been pursued;

3. Sufficient information and evidence have been obtained to support the government’s liability
   case, or determine that no viable PRPs exist or can be found;

4. PRPs have been categorized and financial and waste contribution information needed to perform
   orphan share calculations has been collected;

5. Ability to pay determination (including but not limited to the investigation and analysis of any
   applicable insurance coverage) have been made for those PRPs who have asserted inability to
   pay in good faith; and

6. General notice letters have been issued to all PRPs being pursued.




                                                27
                                                                                  09-P-0144


                                                                              Appendix B
                                    Distribution

Office of the Administrator
Acting Chief Financial Officer
Acting Assistant Administrator, Office of Enforcement and Compliance Assurance
Acting Assistant Administrator, Office of Solid Waste and Emergency Response
Acting Regional Administrator, Region 5
Acting Regional Administrator, Region 9
Acting Regional Administrator, Region 10
Deputy Chief Financial Officer
Principal Deputy Assistant Administrator, Office of Enforcement and Compliance Assurance
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Office of General Counsel
Acting Associate Administrator for Congressional and Intergovernmental Relations
Acting Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of the Chief Financial Officer
Audit Follow-up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Region 5
Audit Follow-up Coordinator, Region 9
Audit Follow-up Coordinator, Region 10
Acting Inspector General




                                            28
